E-Mail Address: 775 H Street, N.E.
Est eal briefs@wilsonepes.com Washington, D.C. 20002

WAS TG

Web Site: Tel (202) 789-0096
axa www.wilsonepes.com Fax (202) 842-4896
No.

THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
Petitioner,

v.

THE COMMONWEALTH OF PENNSYLVANIA AND
THE STATE OF NEW JERSEY, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on October 1, 2019, three (3) copies of the PETITION FOR A WRIT OF
CERTIORARI in the above-captioned case were served, as required by U.S. Supreme Court Rule
29.5(c), on the following:

JOSH SHAPIRO GURBIR S. GREWAL

Attorney General Attorney General
COMMONWEALTH OF PENNSYLVANIA STATE OF NEW JERSEY
MICHAEL J. FISCHER GLENN J. MORAMARCO

Chief Deputy Attorney General Assistant Attorney General
AIMEE D. THOMSON ELSPETH FAIMAN HANS

Deputy Attorney General KATHERINE GREGORY
OFFICE OF ATTORNEY GENERAL Deputy Attorneys General
1600 Arch Street NEW JERSEY ATTORNEY GENERAL'S OFFICE
Suite 300 Richard J. Hughes Justice Complex
Philadelphia, PA 19103 25 Market Street
(215) 560-2171 Trenton, NJ 08625
Counsel for the Commonwealth of (609) 376-3235

Pennsylvania Counsel for the State of New Jersey

NOEL J. FRANCISCO

Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217

Counsel for the United States

The following email addresses have also been served electronically:

mrienzi@becketlaw.org
mfischer@attorneygeneral.gov
Glenn.Moramarco@law.njoag.gov
SupremeCtBriefs@USDOJ.gov
IRENE M. CARR |

‘WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 1st day of October 2019.

 

District of Columbia

My commission expires April 14, 2022.

 
